No. 19INTHE

ANTONIO L. SAULSBERRY

Petitioner,

v.
RANDY LEE, WARDEN

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE

I, Joshua M. Koppel, a member of the bar of this Court, hereby certify that, on
this 26th day of September, 2019, all parties required to be served have been served
copies of the Petition for a Writ of Certiorari in this matter by overnight courier to the
address below.
HERBERT H. SLATERY III

ATTORNEY GENERAL AND REPORTER
STATE OF TENNESSEE
ANDREE SOPHIA BLUMSTEIN
SOLICITOR GENERAL
MICHAEL M. STAHL
ASSISTANT ATTORNEY GENERAL
OFFICE OF THE TENNESSEE ATTORNEY GENERAL
FEDERAL HABEAS CORPUS DIVISION

301 Six Avenue North
Nashville, TN 37243
(615) 253-5463
Michael.Stahl@ag.tn.gov

JOSHUA M. KOPPEL
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, D.C. 20006
(202) 663-6000
joshua.koppel@wilmerhale.com

